<html>
<title> - NOMINATIONS OF JENNIFER A. DI TORO, DONNA M. MURPHY, AND YVONNE M. WILLIAMS</title>
<body><pre>[Senate Hearing 112-235]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-235
 
  NOMINATIONS OF JENNIFER A. DI TORO, DONNA M. MURPHY, AND YVONNE M. 
                                WILLIAMS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

  NOMINATIONS OF JENNIFER A. DI TORO, DONNA M. MURPHY, AND YVONNE M. 
 WILLIAMS TO BE ASSOCIATE JUDGES OF THE SUPERIOR COURT OF THE DISTRICT 
                              OF COLUMBIA

                             JUNE 15, 2011

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
68-009                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="98ffe8f7d8fbedebecf0fdf4e8b6fbf7f5b6">[email&#160;protected]</a>  

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                  Michael L. Alexander, Staff Director
                    Holly A. Idelson, Senior Counsel
                        Kenya N. Wiley, Counsel
Lisa M. Powell, Staff Director, Subcommittee on Oversight of Government 
    Management, the Federal Workforce, and the District of Columbia
               Kristine V. Lam, Professional Staff Member
               Nicholas A. Rossi, Minority Staff Director
              Amanda Wood, Minority Deputy General Counsel
                   Jennifer L. Tarr, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
                 Patricia R. Hogan, Publications Clerk
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Akaka................................................     1
Prepared statement:
    Senator Akaka................................................    15

                               WITNESSES
                        Wednesday, June 15, 2011

Hon. Eleanor Holmes Norton, a Delegate in Congress from the 
  District of Columbia...........................................     1
Jennifer A. Di Toro to be an Associate Judge, Superior Court of 
  the District of Columbia.......................................     4
Donna M. Murphy to be an Associate Judge, Superior Court of the 
  District of Columbia...........................................     5
Yvonne M. Williams to be an Associate Judge, Superior Court of 
  the District of Columbia.......................................     6

                     Alphabetical List of Witnesses

Di Toro, Jennifer A.:
    Testimony....................................................     4
    Prepared statement...........................................    16
    Biographical and financial information.......................    17
Murphy, Donna M.:
    Testimony....................................................     5
    Prepared statement...........................................    32
    Biographical and financial information.......................    33
    Responses to post-hearing questions for the Record...........    74
    Letters of support...........................................    81
Norton, Hon. Eleanor Holmes:
    Testimony....................................................     1
Williams, Yvonne M.:
    Testimony....................................................     6
    Prepared statement...........................................    55
    Biographical and financial information.......................    56


                  NOMINATIONS OF JENNIFER A. DI TORO,
                          DONNA M. MURPHY, AND
                           YVONNE M. WILLIAMS

                              ----------                              


                        WEDNESDAY, JUNE 15, 2011

                                     U.S. Senate,  
                       Committee on Homeland Security and  
                                      Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:31 p.m., in 
room 342, Dirksen Senate Office Building, Hon. Daniel K. Akaka, 
presiding.
    Present: Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Aloha, and welcome to the Committee on 
Homeland Security and Governmental Affairs.
    Today, we consider the nominations of Jennifer Di Toro, 
Donna Murphy, and Yvonne Williams to be Associate Judges of the 
Superior Court of the District of Columbia. We consistently 
receive excellent candidates nominated by the President from 
those recommended by the nonpartisan Judicial Nomination 
Commission. I am sure that, if confirmed, these nominees will 
join the others who have appeared before us in making valuable 
contributions to the D.C. courts.
    I would now like to welcome Congresswoman Norton. She is 
like a legend, too, not only in this area, but in the House, 
and she has served the District of Columbia really well over 
the years. I yield for her introduction of our nominees.
    Please proceed, Congresswoman Norton.

 INTRODUCTION OF THE NOMINEES BY HON. ELEANOR HOLMES NORTON, A 
       DELEGATE IN CONGRESS FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Thank you, Chairman Akaka. I must say, your 
kind words, coming from one of the legendary icons of the 
Senate, are generous, indeed, and I appreciate them. I 
particularly appreciate your work, and I believe, for sure, I 
speak for the residents of the District of Columbia when I say 
that a great Senator has had time to work not only for his 
State, but to do wonderful work for the District of Columbia. 
We are always very pleased with how you have paid attention and 
moved our matters here in the Senate.
    Chairman Akaka, I have three candidates to offer this 
afternoon for the D.C. Superior Court. As you know, the D.C. 
Superior Court is an Article I court, but these are city 
judges, for all intents and purposes. They sit on matters 
affecting D.C. law and the D.C. Code. They are very well 
prepared to do that, in my judgment.
    I begin, in alphabetical order, with Jennifer Di Toro, who 
would come to the court as Legal Director of the Children's Law 
Center, which is the city's largest civil legal services 
provider. She has also been a staff attorney for the Public 
Defender Service for the District of Columbia and an associate 
before that at the law firm of Zuckerman Spaeder. She has been 
Vice President of the Washington Council of Lawyers, has her 
Bachelor's degree from Wesleyan University, a Master's degree 
from the University of Oxford, and a J.D. from Stanford Law 
School.
    Donna Murphy has served in the Civil Rights Division of the 
Department of Justice (DOJ) for nearly 20 years. She is 
currently Principal Deputy Chief of the Housing and Civil 
Enforcement Section. She has had major posts in the Justice 
Department in this section throughout her service, as Deputy 
Chief and Special Counsel for Police Matters in the Division's 
Special Litigation Section, as Deputy Chief and Trial Attorney 
in the Division's Voting Section. She has received the John 
Doar Award for Exceptional Accomplishments given by the Justice 
Department. She clerked for a Federal judge in Montgomery, 
Alabama, received her law degree from Yale Law School, and is a 
graduate of American University.
    Finally, Yvonne Williams is in private practice at Miller 
and Chevalier, Chartered. She has litigated employment and 
employee benefit issues before Federal and State courts and 
administrative agencies. She has been a Staff Attorney for the 
Public Defender Service for the District of Columbia. She has 
tried 30 cases before juries and judges in the D.C. Superior 
Court, where she seeks to serve, as well as the D.C. Court of 
Appeals, and she has been an attorney with the NAACP Legal 
Defense and Educational Fund. She is a graduate of Northeastern 
University's School of Law, and her B.A. is from the University 
of California at Berkeley.
    These are, in my judgment, Mr. Chairman, very well 
qualified candidates to sit on our D.C. Superior Court.
    Senator Akaka. Thank you very much, Congresswoman Norton. 
With your support, there is no question that we will do our 
best to move this along as quickly as we can to get them 
confirmed. I appreciate your being here to introduce these 
nominees, and also I know how busy you are and appreciate your 
being here. Thank you very much.
    Ms. Norton. Thank you, Mr. Chairman.
    Senator Akaka. Our nominees all have strong legal 
backgrounds, as was mentioned by the Congresswoman, and have 
devoted much of their careers to public service.
    Ms. Di Toro currently is the Legal Director, as was 
mentioned, at the Children's Law Center and also spent many 
years with the D.C. Public Defender Service.
    Ms. Murphy currently is the Principal Deputy Chief of the 
Housing and Civil Enforcement Section at the Department of 
Justice. Ms. Murphy has spent most of her career at DOJ working 
in the Voting and Special Litigation Sections of the Civil 
Rights Division.
    Ms. Williams currently is counsel at the law firm of Miller 
and Chevalier. Before joining the private sector, Ms. Williams 
was an attorney with the D.C. Public Defender Service.
    I believe these nominees have much to offer to the D.C. 
Superior Court, and I hope--and I am repeating myself because 
it is important--that we can act quickly to confirm them.
    Each nominee has filed responses to a biographical and 
financial questionnaire submitted by the Committee, so without 
objection, this information will be made part of the hearing 
record, with the exception of the financial data, which will be 
kept on file and made available for public inspection in the 
Committee office.
    Our Committee rules require that all witnesses at 
nomination hearings give their testimony under oath. Therefore, 
at this time, I ask you to please stand and raise your right 
hand.
    Do you swear that the testimony you are about to give this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Ms. Di Toro. I do.
    Ms. Murphy. I do.
    Ms. Williams. I do.
    Senator Akaka. Thank you. Please note for the record that 
the witnesses answered in the affirmative.
    Ms. Di Toro, I understand that you have family here with 
you today. We would like to meet them, and I would like to give 
you an opportunity to introduce them at this time.
    Ms. Di Toro. Thank you, Senator. I would like to introduce 
the members of my family who are here with me today: Marilyn 
and Dominic Di Toro, Enza Mullen Weitzner, Ellen Feder, and 
Dominic, Zoey, and Enza.
    Senator Akaka. Will you raise your hands? Oh, there you 
are. Thank you for attending. It is great support. Thank you.
    Ms. Williams, please introduce your family.
    Ms. Williams. Thank you, Senator. I have with me today my 
son, Kendall Weaver; my mother, Julia Burgess; my brother, who 
is right behind me, Kevin Williams; and my stepfather, who is 
right there, Roy Singham.
    Senator Akaka. Thank you.
    And I did not forget you, Ms. Murphy. Please introduce your 
family and any friends who are here today.
    Ms. Murphy. Thank you, Senator. Mr. Chairman, I would like 
to introduce my family members who are here today. First, my 
husband, Keenan Keller; my daughters, Lillian Keller and Claire 
Keller; my parents, who have traveled here from Pennsylvania, 
Jack and Isabelle Murphy; and my father- and mother-in-law who 
have traveled here from Ohio, Albert and Inell Keller.
    And I have a number of friends and colleagues in the 
audience. I do not want to introduce them because I am sure I 
will miss someone, but I would like to thank all of them for 
their support.
    Senator Akaka. Yes. Well, thank you so much. It is good to 
have all of you here because it shows the support that our 
nominees have. So thank you all. It is wonderful to see your 
loved ones here supporting you, and I am sure that they are 
proud of all you have accomplished.
    Ms. Di Toro, we will begin with you. Please proceed with 
your statement.

TESTIMONY OF JENNIFER A. DI TORO \1\ TO BE AN ASSOCIATE JUDGE, 
           SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Ms. Di Toro. Mr. Chairman and Members of the Committee, 
thank you for the opportunity to appear before you today and 
for considering my qualifications for a position as an 
Associate Judge of the Superior Court of the District of 
Columbia.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Di Toro appears in the Appendix 
on page 16.
---------------------------------------------------------------------------
    It is a great honor to be nominated. I want to thank the 
Judicial Nomination Commission, in particular the Chair of the 
Commission, the Hon. Emmet G. Sullivan, for recommending me to 
the White House and President Barack Obama for nominating me. I 
very much appreciate Congresswoman Eleanor Holmes Norton taking 
time from her schedule to introduce me. My thanks also to the 
Senate Committee staff for their hard work in preparing for 
this hearing and for the courtesy and professionalism they have 
extended to me throughout this process.
    It has been my extreme good fortune to grow up in a 
household where curiosity, creativity, and excellence were 
actively encouraged. My parents, who you have met, my brother, 
Joe, and my aunts, uncles, cousins, and grandparents all 
contributed directly to my being before you today. I am 
grateful for their example and unflagging support.
    A number of my friends, colleagues, and mentors are here 
today. I am also thankful for their steadfast encouragement and 
sustaining good humor. I would finally like to extend my 
special thanks to Chief Judge Lee F. Satterfield for his 
encouragement and exemplary leadership.
    I attended law school in order to work on behalf of people 
who needed it most because they are living in poverty, facing 
the loss of liberty or property, or because they are children 
who require safety, stability, and health to live productive 
lives. I have been very fortunate to have worked at several of 
the District's premier organizations in service to those 
ideals.
    At Georgetown University Law Center's Criminal Justice 
Clinic, the Public Defender Service, Zuckerman Spaeder, and 
Children's Law Center, I have had the honor of using my degree 
to enable people seeking solutions to pressing problems in 
environments that were challenging, rewarding, and inspiring. 
My commitment to public service and access to justice is also 
what motivates me to seek appointment to the bench.
    As the Committee knows, I have been practicing law in the 
District of Columbia for nearly 15 years, handling all of my 
cases in Superior Court. I am, as one Superior Court judge put 
it to me, ``homegrown,'' and I am quite moved to be before you 
as a nominee to the very court where I learned my craft and by 
the prospect of joining such an engaged and demanding bench. 
From them, I have learned much of what I know about the law, 
about ensuring access to justice, fairness, and the demands and 
rewards of public service.
    I am humbled to be considered for this position. I thank 
you for the opportunity to appear today, and I look forward to 
answering your questions. Thank you.
    Senator Akaka. Thank you very much, Ms. Di Toro.
    Ms. Murphy, please go ahead with your statement.

  TESTIMONY OF DONNA M. MURPHY \1\ TO BE AN ASSOCIATE JUDGE, 
           SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Ms. Murphy. Thank you, Mr. Chairman. I want to thank you 
and the Members of the Committee for the opportunity to appear 
before you today and for your consideration of my 
qualifications for a position as an Associate Judge on the D.C. 
Superior Court.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Murphy appears in the Appendix on 
page 32.
---------------------------------------------------------------------------
    I would also like to thank the Judicial Nomination 
Commission, chaired by the Hon. Emmet Sullivan, for 
recommending me to the White House. I would like to thank 
President Barack Obama for my nomination and Delegate Eleanor 
Holmes Norton for her kind introduction. I would like to thank 
the Committee staff, also, for their professionalism in this 
process.
    I am pleased that many of my family members, friends, and 
colleagues are here with me today, including those that you met 
a few minutes ago, and I am grateful to all of my family, 
friends, colleagues, and mentors for the incredible support and 
encouragement they have provided me in my chosen career of 
public service, and particularly in my application for this 
position on the Superior Court of the District of Columbia.
    I was born and raised in Norristown, Pennsylvania.
    However, I have chosen Washington, DC, as my home. I first 
visited the District of Columbia on a family vacation when I 
was about 12 years old, and I decided at that time that I would 
make the city my home. I followed through by moving to the 
District to attend college at American University. I did leave 
for a few years to attend Yale Law School and then to begin my 
legal career by serving as a law clerk to the Hon. Myron 
Thompson of the U.S. District Court for the Middle District of 
Alabama. After my clerkship, though, I moved back to Washington 
to work for the U.S. Department of Justice, Civil Rights 
Division, and I have lived, worked, and been part of the 
community here in the District of Columbia ever since that 
time.
    Throughout my career, I have been fortunate to hold 
positions where my job every day is to do justice. This is a 
tremendous responsibility and a tremendous opportunity for me 
throughout my career. It began with my clerkship, where Judge 
Thompson taught me a tremendous amount about the law while also 
underscoring the importance of treating everyone who walks into 
the court with respect and dignity. Judge Thompson is a smart, 
fair, and respected jurist. He is one of my role models and has 
been an inspiration to me in seeking a position on the D.C. 
Superior Court.
    As an attorney and manager in the Civil Rights Division for 
the past 20 years, I have had the opportunity to protect and 
defend the civil rights of many people whose rights otherwise 
might never have been vindicated. I have challenged myself by 
working in a variety of complex substantive areas, including 
Federal voting rights enforcement, civil enforcement of Federal 
laws prohibiting systemic law enforcement misconduct, and 
enforcement of Federal laws prohibiting discrimination in 
credit, housing, and public accommodations.
    I have worked in these areas as a Deputy Chief and Special 
Counsel, supervising numerous investigations and cases 
involving potential pattern or practice civil rights 
violations. I have trained dozens of new Department of Justice 
lawyers to enforce the law in a thorough and professional 
manner. I have been honored by the opportunity to make a 
difference in the lives of thousands of people throughout this 
great country by doing justice. I also have been very fortunate 
to have tremendously talented and dedicated colleagues in the 
Civil Rights Division.
    If I am confirmed for the position of Associate Judge on 
the D.C. Superior Court, I look forward to the opportunity to 
focus my legal skills and energy on serving the people of the 
District of Columbia and bringing to the bench my extensive 
litigation, negotiation, and management experience. I am truly 
honored and humbled to be considered for this position, and I 
would welcome the opportunity to devote myself to providing 
justice in a fair and respectful manner to the people of the 
District of Columbia.
    Thank you again for your time and your consideration of my 
nomination.
    Senator Akaka. Thank you very much, Ms. Murphy.
    Ms. Williams, please proceed with your statement.

 TESTIMONY OF YVONNE M. WILLIAMS \1\ TO BE AN ASSOCIATE JUDGE, 
           SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Ms. Williams. Thank you. Mr. Chairman and Members of the 
Committee, I am grateful for and honored by the opportunity to 
appear before you today as a nominee to be an Associate Judge 
of the D.C. Superior Court. I would like to thank the D.C. 
Judicial Nomination Commission for recommending me to the White 
House and President Barack Obama for nominating me. I would 
also like to thank Congresswoman Norton for taking time out of 
her schedule to introduce me here today. I would also like to 
thank the Senate Committee staff members for considering my 
nomination and for treating me with the utmost courtesy and 
respect during this entire process.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Williams appears in the Appendix 
on page 55.
---------------------------------------------------------------------------
    So you have met my family, and I want to thank them for not 
only being here, but for a lifetime of support, encouragement, 
and guidance that has truly shaped the person I have become 
today. I would also like to thank my father, John Williams, and 
my sisters, Tanya Williams, Jackie Kramer, and Dandridge Floyd, 
who all reside in Detroit, Michigan, but could not be here 
today.
    Finally, many of my fabulous friends, mentors, and 
colleagues, including apparently colleagues at Miller and 
Chevalier watching via webcast right now, are here with me 
today, and I would like to thank them for inspiring, 
challenging, and supporting me throughout my career.
    Whether as a teenager growing up in Chicago, Illinois, or 
as an undergraduate at the University of California at 
Berkeley, or as a law student at Northeastern University School 
of Law, I have always been committed to doing what I can do to 
help improve and enrich the lives of others. At Northeastern, I 
was trained to become a lawyer imbued with a commitment to 
principled advocacy and to the notion that, because injustice 
can exist anywhere, it is our responsibility as lawyers to use 
the law to advance and improve the lives of those whom we 
serve. I have strived to do that for every client I have been 
fortunate enough to represent. As a D.C. Superior Court Judge, 
I will continue that commitment to making a positive difference 
in people's lives.
    In my 14 years as a practicing attorney, I have fiercely 
advocated on behalf of my clients to protect and advance their 
rights and legal positions. During the first half of my career, 
I worked exclusively on behalf of low-income African-American 
workers before Federal courts throughout the country and 
indigent criminal defendants at both the trial and appellate 
level in D.C. Superior Court. In the second half of my career, 
to date, I have represented individuals and corporations in 
civil and criminal matters, defending their interests against 
various legal claims before Federal courts and administrative 
agencies. In each of these matters, I was dedicated to 
improving the circumstances of my clients and to working with 
them to seek and obtain just solutions to their problems.
    I am moved and humbled to be considered for a judgeship on 
the D.C. Superior Court. This is the court where I grew up as 
an attorney. This is where I learned how to be a lawyer and 
where every day I was reminded of the strength, perseverance, 
and compassion of the citizens of the District of Columbia. I 
am so proud to serve this great city in this capacity, and I 
thank you again for considering my nomination.
    Senator Akaka. Thank you very much, Ms. Williams.
    I will begin with the standard questions this Committee 
asks of all nominees, and I would like you all to answer each 
question.
    Is there anything you are aware of in your background that 
might present a conflict of interest with the duties of the 
office to which you have been nominated?
    Ms. Di Toro. No.
    Senator Akaka. Thank you.
    Ms. Murphy. No, Mr. Chairman.
    Senator Akaka. Thank you.
    Ms. Williams. No, sir.
    Senator Akaka. Thank you.
    Do you know of anything, personal or otherwise, that would 
in any way prevent you from fully and honorably discharging the 
responsibilities of the office to which you have been 
nominated?
    Ms. Di Toro. No, Mr. Chairman.
    Ms. Murphy. No, Mr. Chairman.
    Ms. Williams. No, Mr. Chairman.
    Senator Akaka. Do you agree, without reservation, to 
respond to any reasonable summons to appear and testify before 
any duly constituted committee of Congress if you are 
confirmed?
    Ms. Di Toro. I do, Mr. Chairman.
    Ms. Murphy. Yes, Mr. Chairman.
    Ms. Williams. I do.
    Senator Akaka. Thank you very much for your responses.
    I see that all three of you have experience in public 
service. I commend your decision to continue your service by 
joining the D.C. judicial system. Please elaborate on why you 
are seeking appointment to become an Associate Judge at this 
point in your career. Ms. Di Toro, I would like for you to 
start, to be followed by Ms. Williams and Ms. Murphy.
    Ms. Di Toro. Thank you, Senator. The District of Columbia 
is the place, and the Superior Court in particular, where, as 
Ms. Williams said, I grew up as a lawyer, and it is the place 
where I believe justice is done every day for the citizens who 
come through the doors. I believe that I am able, at this point 
in my career, to make a contribution to that system of justice. 
I have had experience in the Family Court and in the Criminal 
Division, and I would be honored to serve in either if I am 
confirmed.
    I believe that access to justice is one of the things that 
characterizes the United States of America's greatness and 
truth, and being able to walk through the doors of the Superior 
Court and know that you will receive a full and fair hearing is 
something to which I would be very honored to contribute.
    Senator Akaka. Thank you very much. Ms. Williams.
    Ms. Williams. Thank you, Mr. Chairman. Quite honestly, as I 
said in my statement, the reason I sought to secure a position 
as a D.C. Superior Court judge truly was to be able to make a 
positive difference in people's lives. I think in a courthouse 
like the D.C. Superior Court, you are faced with issues and you 
are faced with people who are dealing with issues that are 
sometimes unimaginable, and I think that they look to places 
like D.C. Superior Court for empathy, for assistance, for 
respect, and most importantly, for justice, and I think that my 
background kind of uniquely suits me to be able to assist and 
offer my help to people and litigants before D.C. Superior 
Court, as it is a very active court and people expect prompt 
justice and they expect it with a level of respect that I know 
that I can provide them. And I think that it is crucial that we 
have judges who are committed to providing litigants that kind 
of treatment and respect, and my background certainly, I think, 
is consistent with that offering.
    Senator Akaka. Thank you very much.
    Ms. Williams. Thank you.
    Senator Akaka. Ms. Murphy.
    Ms. Murphy. Thank you, Mr. Chairman. Unlike my two fellow 
nominees, I have spent my career in the Federal courts, and as 
I described, I have been very honored to have a very rewarding 
career in the Civil Rights Division. I have enjoyed and really 
hopefully done my best at opportunities and challenges I have 
had to help the individuals who were affected by the pattern or 
practice civil rights violations that I help to address through 
my work throughout the country.
    But one thing I have not had the opportunity to do very 
often is to bring my legal skills and my public service to bear 
in the District of Columbia. Because the Justice Department has 
nationwide jurisdiction, we only occasionally have cases in the 
District of Columbia, and as a 20-year resident of the District 
of Columbia with children who are growing up here and as an 
active member of the community, at this point in my career, I 
would like to bring my legal skills and experience that I have 
gained through the experiences I have had at DOJ to bear in a 
very positive way for the people in the District, and that is 
the main motivation for my looking to join the D.C. Superior 
Court.
    Senator Akaka. Let me just follow up with a question for 
you, Ms. Murphy. Can you please describe your temperament and 
the qualities you believe you would bring to the bench, if 
confirmed?
    Ms. Murphy. Thank you, Mr. Chairman, for that question. I, 
in my career for the last 15 years, have been a manager at the 
Department of Justice, and I, in that position, always try to 
bring a thoughtful, calm, and analytical approach to the issues 
that are brought before me. We receive complaints. The teams I 
supervise investigate them, and we have to determine what 
recommendation to make to the policy makers at the Department.
    In that position, I deal with differing opinions, analyze 
the situation, try to get all the facts and apply them to the 
relevant law, and then make the best recommendation that I can 
in, as I said, a careful and thoughtful manner. I believe that 
I would bring those same qualities of balance, care, and 
analysis to the bench and to the problems that I would approach 
as a D.C. Superior Court judge if I am confirmed.
    Senator Akaka. Thank you very much.
    Ms. Di Toro, as a judge, you may have pro se litigants or 
young and inexperienced attorneys appear before you. How have 
your experiences prepared you to deal with these situations?
    Ms. Di Toro. Thank you for that question. I have a lot of 
experience with direct service, and there is not very much 
difference between talking to someone who is facing the crisis 
of a lifetime and trying to explain in clear, non-legal 
language what is about to happen, the likelihood of outcomes 
that are of concern to them, and to do so in a way that is 
respectful, is empathetic, and allows plenty of time for people 
to ask questions. And my hope is that I would be that kind of 
judge, who allows time for people to ask questions, to consult 
with counsel if they need it.
    And for pro se litigants, it is particularly important that 
they understand that courtrooms have procedures, that we have 
rules that govern proceedings, that there are rules of 
evidence, that there are rules governing witnesses, and it is 
the responsibility of the judge to make sure that there is a 
just outcome in every case. And it is more difficult, 
conceivably, with pro se litigants, but my belief is, with my 
extensive experience with children, adults, and teenagers in my 
current job, that it is possible to keep an even temperament, 
with reference to your prior question for Ms. Murphy, and also 
to help people, regardless of whether they have counsel or not, 
through these very difficult processes.
    Senator Akaka. Thank you for your response.
    Ms. Williams, a judge is often challenged to rule on 
complex issues both quickly and correctly. Please describe how 
your experience qualifies you to confront this challenge.
    Ms. Williams. Well, my experience for most of my career has 
been either as a trial lawyer or as a litigator, and as a trial 
lawyer and as a litigator, particularly as a trial lawyer, you 
are often thinking on your feet. You are often having to move 
very quickly and come up with legal solutions to problems that 
are facing your clients as they come up in trial.
    As a litigator, when you are faced with any kind of legal 
issue, obviously, the first thing that you do is you research 
the answer to the question if you do not know the answer. I 
certainly would not, if confirmed, be a judge to shoot from the 
hip and go from there. Certainly, research is important. 
Listening to the litigants before you is also very important, 
and certainly relying on the arguments that they represent is 
important.
    Finally, relying on your colleagues with whom you work is 
important. Certainly, you cannot be an effective litigator or a 
trial lawyer--at least, I cannot--without relying on and being 
able to look to your fellow colleagues who have been doing it 
longer than you, who have different strategies and different 
ways of looking at things and resolving problems. And so all of 
those avenues of reaching out certainly should be explored 
before coming to any kind of legal conclusion, I would suspect, 
and that is what I certainly plan to do, if confirmed, as a 
D.C. Superior Court judge. Thank you.
    Senator Akaka. Thank you.
    The role of a judge is very different from the role of an 
advocate and will be new to all three of you. Will you please 
discuss how you will transition to the role of an impartial 
decisionmaker. So let me call on Ms. Murphy first.
    Ms. Murphy. Thank you, Mr. Chairman. I believe that if I am 
confirmed, I will be able to transition successfully to the 
role of a judge based on experiences that I have had during my 
career thus far. In particular, one of the things that I 
mentioned earlier in terms of one of my jobs as a manager at 
the Department of Justice is to listen to differing points of 
view and sometimes synthesize those and sometimes just make a 
decision in terms of how we should proceed at a recommendation 
level or how we would proceed in a trial or on a procedural 
matter.
    In approaching those kinds of decisions, I believe it is 
very important to listen to all sides of the issues and to 
ensure that everyone has their say and then to move forward in 
making decisions. So I am comfortable, certainly, building 
consensus. I am also comfortable mediating solutions, and I am 
also comfortable making decisions when I have to make a 
decision regarding conflicting points of view.
    Senator Akaka. Ms. Di Toro.
    Ms. Di Toro. Thank you, Mr. Chairman. The transition, as I 
see it, is going from an attorney whose job it is, whose 
ethical duty it is to zealously advocate for a single client to 
being responsible for all of the litigants, all of the parties 
in a case. I believe that the same qualities that enable me to 
counsel clients regarding the many possible outcomes in their 
cases would serve me as a judge in being able to conduct myself 
and my courtroom in such a way that all parties who appear 
leave with a sense that they have been treated fairly, 
regardless of the outcome of their case. There have to be 
winners and there have to be losers, but everyone ought to 
leave the D.C. Superior Court and, if I am confirmed, my 
courtroom with a sense that they have been heard and that they 
have been able to fully present their side of the case.
    Senator Akaka. Thank you. Ms. Williams.
    Ms. Williams. I kind of have to piggyback just a little bit 
on what Ms. Di Toro was saying. As a litigator, and even as a 
trial lawyer, it is very difficult to be successful if you only 
know your case, but you do not know the case of your opponent. 
I find myself always objectively standing back and looking at 
my cases and trying to figure out what are the strongest 
arguments on both sides and being able to articulate both 
positions to my client so my client can make an informed 
decision about what it is that they want to do.
    Obviously, that level of objectivity will inform my ability 
to be an effective D.C. Superior Court judge, if confirmed, and 
I hope to bring that level of objectivity and understanding to 
the bench and to assist the litigants who would appear before 
me. Thank you.
    Senator Akaka. Thank you.
    Ms. Williams, the D.C. Superior Court handles many 
different types of cases, and a judge may not know which docket 
he or she will be assigned to. How has your career prepared you 
to handle the wide range of legal issues you will be 
confronting?
    Ms. Williams. Well, my career is kind of different than a 
lot of people in that I have done a significant amount of civil 
work as well as a significant amount of criminal work. I think 
a lot of attorneys do work in one specific area and do not go 
into both. I have defended plaintiffs. I have represented 
plaintiffs in civil cases. I have represented defendants in 
civil cases and, obviously, defendants in criminal cases. And 
so my experience is very varied in terms of representation of 
individuals and corporations who appear before courts.
    Now, when I take the bench, if confirmed, that experience, 
I am sure, will be helpful as a judge. But one of the major 
things I will probably do if I am confirmed is to seek advice 
and counsel from the other judges who have been there for years 
before me and who obviously have had countless experiences as a 
judge and probably can remember very well their first day being 
there and can guide me and help me through the process. But I 
am sure that the background that I have had thus far will at 
least give me a good foundation to start off. Thank you.
    Senator Akaka. Thank you.
    Ms. Murphy, I want to ask you a related question. You have 
primarily practiced civil law. You may, however, be assigned to 
a criminal docket. What steps will you take to familiarize 
yourself with different areas of the law?
    Ms. Murphy. Thank you, Mr. Chairman. If I am confirmed and 
if I were assigned to a criminal docket, I think there are a 
number of steps that I would take to familiarize myself. First 
of all, my understanding is that the Superior Court has an 
excellent training system, and I would certainly take advantage 
of all the training they offered. I would also consult, as Ms. 
Williams said, with the more experienced judges in terms of 
their procedures and their best practices and any other advice 
they would have in terms of running a particular type of 
docket, and I would do that regardless of which type of docket 
I was assigned to. I would also, of course, do the research 
that was necessary to familiarize myself with all of the 
applicable rules and requirements for running that type of 
docket.
    I think that I could bring experience that would be useful 
because while I have practiced only civil law, I have practiced 
in a number of different substantive areas and have learned 
each of those areas in my career with these kinds of measures. 
Also, while I have not practiced criminal law per se, my 
experience working with law enforcement agencies in the Special 
Litigation Section has given me some familiarity with police 
procedures and various aspects of State court criminal 
proceedings that I think would give me a basis for beginning to 
learn how to run that kind of docket as a judge. Thank you.
    Senator Akaka. Thank you.
    Ms. Di Toro, as you know, courtrooms can often be 
emotionally charged places. Please describe how you plan to 
maintain a productive courtroom environment while making sure 
people feel their concerns were heard.
    Ms. Di Toro. I would say that the judge does set the tone 
in a courtroom and courtrooms that are scheduled in such a way 
that people know that the time that they are scheduled to 
appear is at or very close to the time that their case will be 
heard.
    In terms of the emotions, people are in distress, and it is 
fair that they be able to express that distress. It is also 
reasonable, I believe, for the judge to maintain a sense of 
order. It is actually critical. And some of the same skills 
that I have acquired dealing with clients who also were facing 
very difficult circumstances are applicable to the role that I 
believe a good judge plays, which is to acknowledge that 
something is difficult, to explain clearly what is going on, to 
listen, and if necessary, to ask that the person or people 
perhaps take a recess, collect themselves. I have been very 
privileged to be in courtrooms that were the scene of extremely 
difficult circumstances and to watch judges on the Superior 
Court calm the proceedings and move forward efficiently while 
still balancing the need for litigants to be heard.
    Senator Akaka. Thank you very much for your response.
    This is my final question to all of you, and I would like 
you to respond. During your years practicing law, you have 
appeared before many judges and no doubt learned a great deal 
from just observing them. Will you describe qualities you hope 
to emulate and those you hope to avoid. [Laughter.]
    Ms. Williams, will you please begin, followed by Ms. Murphy 
and Ms. Di Toro. Ms. Williams.
    Ms. Williams. Yes, I have appeared before many judges, in 
fact, in D.C. Superior Court, obviously, as a public defender, 
and the judges in D.C. Superior Court are superior judges. It 
is an outstanding bench that we have and we are lucky enough to 
practice in front of.
    But I will say the judges that I hope to emulate are the 
judges who are unbelievably empathetic and caring, particularly 
about the children who come before them in family court matters 
or in juvenile court matters. I mean, you can see some very 
distressing fact patterns, to put it mildly, and the judges are 
unbelievably empathetic and caring about really getting it 
right, really getting the services for the family and for the 
children who are before them, and that is something that I 
truly hope to emulate.
    Some judges are very, I will say, fast. They rule on 
motions quickly. They are very polite to litigants, and I 
really hope to do that, as well, in terms of being patient and 
polite and, most importantly, ruling on motions quickly to the 
extent that it is possible to rule any more quickly because I 
know what it is like to represent clients who really want their 
matters resolved as quickly as possible, and I know that there 
is a lot of pressure on judges to get things through, and I 
hope to be able to do that.
    Things that I hope to not do would be allowing lawyers just 
to sit around all day without having taken the bench in a 
timely fashion. That has happened to me several times as a 
lawyer. It still happens, and obviously, sometimes you cannot 
control your schedule, and sometimes it happens that judges 
cannot take the bench in an entirely timely fashion. But there 
are some judges who routinely are late, and it can be very 
difficult as a lawyer, representing a client. Clients get 
impatient. They want to be heard. I mean, that is what judges 
are there for. We are there to serve the people who are there 
and to get on the bench on time and start serving. So that is 
what I hope to not do. Thank you.
    Senator Akaka. Thank you very much. Ms. Murphy.
    Ms. Murphy. Thank you, Mr. Chairman. I would echo Ms. 
Williams' statements about the importance, I think, of empathy 
and also efficiency in judging, and I would hope that, if I am 
confirmed, I would emulate the judges whom I have appeared in 
front of who are very good in those categories.
    I have been fortunate that the vast majority of judges I 
have appeared in front of have been very good judges, and the 
other quality that I would say is most important, that I would 
like to emulate the most, is respect for all the litigants, 
which I think is absolutely crucial--to show and to 
demonstrate, the way questions are asked and the way that 
proceedings are run, that the judge has respect for all the 
parties as well as the lawyers, and that is something that I 
have seen done very well, and also for the jurors when you have 
a jury. I have watched good judges run jury trials in a way 
that shows how respectful they are of the jurors' time, and I 
think that is very crucial as well.
    In terms of what I would avoid, the one thing I think I 
would try to avoid the most is lack of transparency about what 
is going on. When judges are not clear with the attorneys about 
what they are doing--for example, if it is going to take time 
to rule on a particular motion, it is much better, in my view, 
for the judge to let the parties know and let the attorneys 
know that it is going to take several weeks, or that he or she 
is going to rule on the motion in a certain time and fashion 
and to set a scheduling order and to be very transparent about 
the procedures that are followed so that the attorneys and the 
parties are not left guessing, and that would be something that 
I would certainly want to avoid, and I would try to establish 
very transparent and clear procedures for how I was operating.
    Senator Akaka. Thank you. Ms. Di Toro.
    Ms. Di Toro. Thank you, Mr. Chairman. And for my part, I 
agree with what my fellow nominees have said. I do think that 
the judge's temperament is exceedingly important and, as I said 
before, does set the tone. I would hope that I would be a 
rigorous judge. The judges that I enjoyed appearing in front of 
the most were the judges I knew were demanding the most of the 
parties. I appreciate efficiency, patience, politeness, and I 
have also had the experience in family court of judges who are 
truly empathetic to the circumstances facing the families of 
the District of Columbia.
    It is important that judges get it right and that they also 
understand that if something is going to take a long time--I 
agree with Ms. Murphy--you tell the litigants that this is 
going to take some time and be clear about how long it is 
likely to take for rulings or motions, or even the day's 
proceedings. I have always appreciated when a judge says, ``We 
will be back at two o'clock,'' and we are back at two o'clock.
    I would also avoid long waits for clients, for witnesses, 
for jurors, and for families. It is asking a lot of people who 
are anxious to spend hours and hours, sometimes excluded from 
courtrooms when they are closed for sealed proceedings, to just 
wait. And by the same token, I would try to avoid rushing 
litigants. I think it is a difficult balance, and I have 
absolutely been fortunate to practice in a courthouse where 
those qualities are the norm.
    I think the D.C. Superior Court serves D.C. residents with 
enormous dignity, and if I am confirmed, it would be a great 
honor to be able to do the same.
    Senator Akaka. Well, thank you very much for your 
responses, and thank you for your testimony.
    There are no further questions at this time from me. There 
may be additional questions for the record, which will be 
submitted to you in writing. The hearing record will remain 
open until the close of business tomorrow for Members of this 
Committee to submit additional statements or questions.
    I want to compliment you and thank you for bringing your 
families, your friends, and your supporters to this hearing. I 
want to thank the staff for all the work that they have done to 
bring this about. We will move as quickly as we can toward 
confirmation. It is my hope that this Committee and the Senate 
will be able to act quickly on it.
    So again, thank you very much. I have enjoyed you and your 
families. This has been like a family session today. But I want 
to wish you well in what is coming in the future. I just want 
to say that your future work will really add to the community 
and its well being. So thank you very much and aloha.
    This hearing is adjourned.
    [Whereupon, at 3:24 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T8009.001

[GRAPHIC] [TIFF OMITTED] T8009.002

[GRAPHIC] [TIFF OMITTED] T8009.003

[GRAPHIC] [TIFF OMITTED] T8009.004

[GRAPHIC] [TIFF OMITTED] T8009.005

[GRAPHIC] [TIFF OMITTED] T8009.006

[GRAPHIC] [TIFF OMITTED] T8009.007

[GRAPHIC] [TIFF OMITTED] T8009.008

[GRAPHIC] [TIFF OMITTED] T8009.009

[GRAPHIC] [TIFF OMITTED] T8009.010

[GRAPHIC] [TIFF OMITTED] T8009.011

[GRAPHIC] [TIFF OMITTED] T8009.012

[GRAPHIC] [TIFF OMITTED] T8009.013

[GRAPHIC] [TIFF OMITTED] T8009.014

[GRAPHIC] [TIFF OMITTED] T8009.015

[GRAPHIC] [TIFF OMITTED] T8009.016

[GRAPHIC] [TIFF OMITTED] T8009.017

[GRAPHIC] [TIFF OMITTED] T8009.018

[GRAPHIC] [TIFF OMITTED] T8009.019

[GRAPHIC] [TIFF OMITTED] T8009.020

[GRAPHIC] [TIFF OMITTED] T8009.021

[GRAPHIC] [TIFF OMITTED] T8009.022

[GRAPHIC] [TIFF OMITTED] T8009.023

[GRAPHIC] [TIFF OMITTED] T8009.024

[GRAPHIC] [TIFF OMITTED] T8009.025

[GRAPHIC] [TIFF OMITTED] T8009.026

[GRAPHIC] [TIFF OMITTED] T8009.027

[GRAPHIC] [TIFF OMITTED] T8009.028

[GRAPHIC] [TIFF OMITTED] T8009.029

[GRAPHIC] [TIFF OMITTED] T8009.030

[GRAPHIC] [TIFF OMITTED] T8009.031

[GRAPHIC] [TIFF OMITTED] T8009.032

[GRAPHIC] [TIFF OMITTED] T8009.033

[GRAPHIC] [TIFF OMITTED] T8009.034

[GRAPHIC] [TIFF OMITTED] T8009.035

[GRAPHIC] [TIFF OMITTED] T8009.036

[GRAPHIC] [TIFF OMITTED] T8009.037

[GRAPHIC] [TIFF OMITTED] T8009.038

[GRAPHIC] [TIFF OMITTED] T8009.039

[GRAPHIC] [TIFF OMITTED] T8009.040

[GRAPHIC] [TIFF OMITTED] T8009.041

[GRAPHIC] [TIFF OMITTED] T8009.042

[GRAPHIC] [TIFF OMITTED] T8009.043

[GRAPHIC] [TIFF OMITTED] T8009.044

[GRAPHIC] [TIFF OMITTED] T8009.045

[GRAPHIC] [TIFF OMITTED] T8009.046

[GRAPHIC] [TIFF OMITTED] T8009.047

[GRAPHIC] [TIFF OMITTED] T8009.048

[GRAPHIC] [TIFF OMITTED] T8009.049

[GRAPHIC] [TIFF OMITTED] T8009.050

[GRAPHIC] [TIFF OMITTED] T8009.051

[GRAPHIC] [TIFF OMITTED] T8009.052

[GRAPHIC] [TIFF OMITTED] T8009.053

[GRAPHIC] [TIFF OMITTED] T8009.054

[GRAPHIC] [TIFF OMITTED] T8009.055

[GRAPHIC] [TIFF OMITTED] T8009.056

[GRAPHIC] [TIFF OMITTED] T8009.057

[GRAPHIC] [TIFF OMITTED] T8009.058

[GRAPHIC] [TIFF OMITTED] T8009.059

[GRAPHIC] [TIFF OMITTED] T8009.062

[GRAPHIC] [TIFF OMITTED] T8009.063

[GRAPHIC] [TIFF OMITTED] T8009.064

[GRAPHIC] [TIFF OMITTED] T8009.065

[GRAPHIC] [TIFF OMITTED] T8009.066

[GRAPHIC] [TIFF OMITTED] T8009.067

[GRAPHIC] [TIFF OMITTED] T8009.068

[GRAPHIC] [TIFF OMITTED] T8009.060

[GRAPHIC] [TIFF OMITTED] T8009.061

[GRAPHIC] [TIFF OMITTED] T8009.069

[GRAPHIC] [TIFF OMITTED] T8009.070

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
